APPLICATION AND
SOLICITATION
DISCLOSURE
CONNECT/VISA SIGNATURE CONNECT REWARDS

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

CONNECT

2.99% or 4.99% Introductory APR, for qualifying members, for a
period of twelve billing cycles, based on your creditworthiness.

After that, or if you do not qualify for an Introductory APR, your APR will be

8.25% to 17.95%, based on your creditworthiness. This APR will
vary with the market based on the Prime Rate.

VISA SIGNATURE CONNECT REWARDS

0.00% Introductory APR, for qualifying members, for a period of six
billing cycles.

This APR will vary with the market based on the Prime Rate.
After that, or if you do not qualify for the Introductory APR, your APR will be

13.74% to 21.74%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.

APR for Balance Transfers

CONNECT
2.99% or 4.99% Introductory APR, for qualifying members, for a period of
twelve billing cycles, based on your creditworthiness.
After that, or if you do not qualify for an Introductory APR, your APR will be
8.25% to 17.95%, based on your creditworthiness. This APR will vary with
the market based on the Prime Rate.
VISA SIGNATURE CONNECT REWARDS
0.00% Introductory APR, for qualifying members, for a period of six billing
cycles.

APR for Cash Advances

After that, or if you do not qualify for the Introductory APR, your APR will be
13.74% to 21.74%, based on your creditworthiness. This APR will vary with
the market based on the Prime Rate.
CONNECT
8.25% to 17.95%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
VISA SIGNATURE CONNECT REWARDS
0.00% Introductory APR, for qualifying members, for a period of six billing
cycles.
After that, or if you do not qualify for the Introductory APR, your APR will be
18.74% to 26.74%, based on your creditworthiness. This APR will vary with
the market based on the Prime Rate.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10200764-MXC10-C-1-051721 (MXC102-E)

How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee - CONNECT
- Annual Fee - VISA SIGNATURE
CONNECT REWARDS

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

$25.00, based on your creditworthiness
None

Transaction Fees
- Balance Transfer Fee
- Overdraft Transfer Fee
- Foreign Transaction Fee

None
$5.00
1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee

Up to $27.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - CONNECT: The Introductory APR for purchases and balance transfers will
apply to transactions posted to your account during the first 12 months following the opening of your account. Any existing
balances on Vantage West Credit Union loan or credit card accounts are not eligible for the Introductory APR for balance
transfers.
Promotional Period for Introductory APR - VISA SIGNATURE CONNECT REWARDS: The Introductory APR for
purchases, balance transfers and cash advances will apply to transactions posted to your account during the first six
months following the opening of your account. Any existing balances on Vantage West Credit Union loan or credit card
accounts are not eligible for the Introductory APR for balance transfers.
Effective Date: The information about the costs of the card described in this application is accurate as of: June 01, 2021. This
information may have changed after that date. To find out what may have changed, contact the Credit Union.
Other Fees & Disclosures:
Late Payment Fee: $27.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days
late in making a payment.
Annual Fee - CONNECT: $25.00 based on your creditworthiness
Pay-by-Phone Fee: $15.00.
Rush Fee: $33.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

10200764-MXC10-C-1-051721 (MXC102-E)

